           U.S. Department of
                                                        Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review of                        Date:    February 20, 2003
           Fiscal Years 2002 and 2001 Audited Financial Statements,
           Saint Lawrence Seaway Development Corporation
           QC-2003-021
                                                                       Reply to
  From:    Alexis M. Stefani                                           Attn of:
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Saint Lawrence Seaway Development
            Corporation Administrator

           The audit of the Saint Lawrence Seaway Development Corporation's Financial
           Statements as of, and for the fiscal years ended, September 30, 2002, and
           September 30, 2001, was completed by Daniel Eke and Associates, P.C. of
           Silver Spring, Maryland. We performed a quality control review of the audit work
           to determine compliance with applicable standards. These standards include the
           Government Corporation Control Act and Government Auditing Standards.

           The Daniel Eke and Associates, P.C. audit report rendered an unqualified opinion on
           the financial statements. The report did not include any reportable internal control
           weaknesses, or material noncompliance with accounting principles, laws, and
           regulations.

           In our opinion, the audit work complied with applicable standards. Therefore, we
           are not making any recommendations, and a response to this report is not required.

           We appreciate the cooperation and assistance of representatives of the Saint
           Lawrence Seaway Development Corporation and Daniel Eke and Associates, P.C.

                                                    #
